   4$5)678))9779




!"#$%&'(#)"'
!*!)4":./$3);<##*%&)&*)&0")=":"%$3)
>",#*(,")?3$(
@!A9779A7BCD




              !"#$%&'"(&)*+)!"+"(,"
          -++./")*+)&0")1(,#"/&*%)2"("%$3
0$'*)&+              ,%&-./)&+        !""#$%&'()*)&+
 Additional Copies

 To obtain additional copies of this evaluation report, visit the Inspector General of
 the Department of Defense Home Page at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
 fax (703) 604-8932.

 Suggestions for Future Evaluations

 To suggest ideas for or to request future evaluations, contact the Audit Followup
 and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                 Inspector General of the Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
DOMS                 Director of Military Support
FEMA                 Federal Emergency Management Agency
FRP                  Federal Response Plan
HHS                  Health and Human Services
OASD(HA)             Office of the Assistant Secretary of Defense (Health Affairs)
RFA                  Request for Federal Assistance
WTC                  World Trade Center
         Office of the Inspector General of the Department of Defense
Report No. D-2002-087                                                    May 10, 2002
  (Project No. D2001LF-0200)

            DoD Medical Support to the Federal Response Plan

                               Executive Summary

Introduction. On September 19, 2001, the Acting Assistant Secretary of Defense
(Health Affairs) requested the Inspector General of the Department of Defense to
review the DoD medical response to the September 11, 2001, terrorist attacks. The
Acting Assistant Secretary wanted to ensure that DoD profits from lessons from the
experience, to ensure that execution and policy are in alignment, and to conserve
medical resources that may be needed in the future. He expressed concerns that
resources may have been expended unnecessarily by initiation of support actions that
were not officially requested by Federal agencies coordinating medical assistance.

Under the Robert T. Stafford Disaster Relief and Emergency Assistance Act of 1974,
the Governor of an affected State may request the President to declare a major disaster
or an emergency if an event is beyond the combined capabilities of the affected State
and local governments. The Federal Response Plan establishes a process and structure
for the systematic, coordinated, and effective delivery of Federal assistance to address
the consequences of any major disaster or emergency declared under the Act. The
Federal Response Plan organizes the types of Federal response assistance into
12 Emergency Support Functions, each of which has a designated primary agency. The
primary agency for Emergency Support Function #8, Health and Medical Services, is
the Department of Health and Human Services. The Secretary of the Army is the DoD
Executive Agent for military support to civil authorities, and the Director of Military
Support acts for the Executive Agent and issues necessary orders.

Results. The Military Health System support following the September 11, 2001,
terrorist attacks was generally in accordance with the Federal Response Plan. DoD
responded to all requests made through the Federal Response Plan process for military
medical assistance and to numerous direct requests from other government agencies.
However, in attempting to be responsive to the emerging crisis, the Air Force moved
medical personnel and equipment to McGuire Air Force Base, New Jersey, that were
not requested through the Federal Response Plan process and ultimately were not
required. The Air Force stated that the movement of the personnel and equipment also
served the purpose of making the resources available worldwide for Air Force
requirements. The Air Force movement of medical resources cost about $500,000 and
was not coordinated with the Director of Military Support in advance or immediately
after the fact. Although the movement of medical assets was within the authority of the
Air Force and was approved by the Secretary of the Air Force, established Federal
Response Plan procedures were not followed. Any actions taken outside the
coordinated efforts of the Federal Response Plan represent a potentially unnecessary use
of DoD resources. See the Finding section for details on the evaluation results.

Summary of Recommendations. We recommend that the Secretary of the Air Force,
when moving resources to support civil authorities under the commander’s immediate
response authority, advise the DoD Executive Agent through the Director of Military
Support by the most expeditious means available, and seek approval or additional
authorizations as needed, in accordance with DoD Directive 3025.1. We also
recommend that the Secretary of the Air Force coordinate with the Director of Military
Support to address communications problems identified by the Air Force during its
attempt to provide support as a result of the September 11, 2001, terrorist attacks.

Management Comments. The Air Force did not respond to a draft of this report
issued on March 19, 2002. We request that the Secretary of the Air Force provide
comments on this report by July 10, 2002.




                                           ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      3

Finding
     Military Health System Support to the Federal Response Plan   4

Appendixes
     A. Scope and Methodology                                       9
     B. Report Distribution                                        11

Management Comments
     Director of Military Support                                  13
Background

    Acting Assistant Secretary of Defense (Health Affairs) Request. On
    September 19, 2001, the Acting Assistant Secretary of Defense (Health Affairs)
    requested the Inspector General of the Department of Defense to review the
    DoD medical response to the September 11, 2001, terrorist attacks. The Acting
    Assistant Secretary wanted to ensure that DoD profits from lessons from the
    experience, to ensure that execution and policy are in alignment, and to
    conserve medical resources that may be needed in the future. He expressed
    concerns that resources may have been expended unnecessarily by initiation of
    support actions that were not officially requested by Federal agencies
    coordinating medical assistance. The request specified that the review should
    include the magnitude and costs of deploying assets requested through the
    Federal Emergency Management Agency (FEMA), as well as any unnecessary
    or costly activities, such as the movement of personnel and resources, which
    expended Defense Health Program or Service assets.

    Stafford Act. The Robert T. Stafford Disaster Relief and Emergency
    Assistance Act (the Stafford Act), as amended, provides an orderly and
    continuing means of assistance by the Federal Government to State and local
    governments in carrying out their responsibilities to alleviate the suffering and
    damage that result from disasters. Under the Stafford Act, the Governor of an
    affected State may request the President to declare a major disaster or an
    emergency if an event is beyond the combined capabilities of the affected State
    and local governments. The Stafford Act also gives the Director, FEMA the
    authority to prepare Federal response plans and to coordinate those plans with
    State efforts, to delegate appropriate emergency preparedness responsibilities to
    other departments and agencies of the Federal Government, and to reimburse
    any Federal agency for use of personnel or resources.

    Federal Response Plan. The Federal Response Plan (FRP) developed by
    FEMA establishes a process and structure for the systematic, coordinated, and
    effective delivery of Federal assistance to address the consequences of any
    major disaster or emergency declared under the Stafford Act. Under the FRP,
    FEMA processes a Governor’s request for disaster assistance, coordinates
    Federal operations under a disaster declaration, and appoints a Federal
    Coordinating Officer. The Federal Coordinating Officer works closely with the
    State Coordinating Officer and the Governor’s Authorized Representative to
    execute all necessary documents for disaster assistance. The FRP states that no
    direct Federal assistance is authorized prior to a presidential declaration of
    disaster. On September 11, 2001, President Bush declared a major disaster for
    the State of New York.

    The FRP organizes the types of Federal assistance that a State is most likely to
    need under 12 Emergency Support Functions, each of which has a designated
    primary agency. FEMA will issue a mission assignment to task a primary
    agency for necessary work to be performed on a reimbursable basis. The
    primary agency may in turn task support agencies, if needed. The primary
    agency for Emergency Support Function #8, Health and Medical Services, is the
    Department of Health and Human Services (HHS). HHS is responsible for


                                        1
providing essential support functions for civilian health and medical services
under the FRP. The HHS Office of Emergency Preparedness is responsible for
coordinating the implementation of Emergency Support Function #8. HHS can
use its own resources and resources from the National Disaster Medical System,
DoD, the Department of Veterans Affairs, and FEMA.

According to the FRP, DoD will normally provide support only when other
resources are not available and only if such support does not interfere with
DoD’s primary mission or ability to respond to operational contingencies. The
FRP also states that requests for military support must be accompanied by a
Request for Federal Assistance (RFA) form, unless the DoD Component is
responding under its independent funding authority or the commander’s
immediate response authority.

National Disaster Medical System. The National Disaster Medical System is a
nationwide medical mutual aid network of Federal and non-Federal sectors that
includes medical response, patient evacuation, and definitive medical care. The
National Disaster Medical System includes disaster medical assistance teams,
disaster mortuary operational response teams, and veterinary medical assistance
teams. Disaster medical assistance teams, composed of volunteer professional
and paraprofessional medical personnel, are designed to provide emergency
medical care during a disaster or other event. Disaster medical assistance teams
are principally a community resource available to support local, regional, and
State requirements. However, they can provide interstate medical aid when they
are activated through the FRP as a national resource.

DoD Guidance. DoD Directive 3025.15, “Military Assistance to Civil
Authorities,” February 18, 1997, in conjunction with DoD Directive 3025.1,
“Military Support to Civil Authorities (MSCA),” January 15, 1993, and its
associated manual were issued to set forth the procedures Military Departments
should follow when responding to civil authorities’ requests for military
assistance during national disasters. The DoD guidance designates the Secretary
of the Army as the DoD Executive Agent for military support to civil authorities
with the authority to task DoD Components to commit resources in response to
civilian requests. The guidance authorizes the Director of Military Support
(DOMS) to act for the DoD Executive Agent and to issue necessary orders.
The DoD guidance states that FEMA is responsible for coordinating Federal
plans and programs for response to civil emergencies and that DOMS shall
ensure coordination of plans and procedures for military support to civil
authorities with FEMA and within DoD.

Additional DoD Support. In addition to supporting the FRP, DoD supported
direct requests from various government agencies regarding the September 11,
2001, terrorist attacks. For example, DoD sent a Ruggedized Advance
Pathogen Identification team to New York City. The team had the capability to
detect, identify, and confirm suspected anthrax cases. That type of support was
provided under memorandums of understanding or the Economy Act, an act that
allows government agencies to order goods or services from other government
agencies when specified conditions are met. This report focuses on support to
the FRP.



                                   2
Objective

     The objective of the evaluation was to review the process for supporting, and
     the cost of deploying medical assets in response to, the Federal Response Plan.
     See Appendix A for a discussion of the evaluation scope and methodology.




                                         3
           Military Health System Support to the
           Federal Response Plan
           The Military Health System support following the September 11, 2001,
           terrorist attacks was generally in accordance with the FRP. DoD
           responded to all requests made through the FRP process for military
           medical assistance and to numerous direct requests from other
           government agencies. However, in attempting to be responsive to the
           emerging crisis, the Air Force moved medical personnel and equipment
           to McGuire Air Force Base, New Jersey, that were not requested
           through the FRP process and ultimately were not required. The Air
           Force movement of medical resources cost about $500,000 and were not
           coordinated with DOMS in advance or immediately after the fact.
           Although the movement of medical assets was within the authority of the
           Air Force and was approved by the Secretary of the Air Force,
           established FRP procedures were not followed. Any actions taken
           outside the coordinated efforts of the FRP represent a potentially
           unnecessary use of DoD resources.


Support Requested Through the FRP

    As a result of the terrorist attacks of September 11, 2001, FEMA activated the
    FRP and the National Disaster Medical System. Those interrelated programs
    are designed to enable command and control of national resources in response to
    local and national disasters. DoD responded to all official requests for military
    medical assistance.

    FEMA provided three RFAs requesting DoD medical support. The RFAs
    requested that DoD deploy USNS Comfort to New York City, provide human
    remains pouches to New York City, and set up a medical mobilization center for
    a Disaster Mortuary Operational Response Team at Stewart Air National Guard
    Base, New York. The RFA for USNS Comfort initially requested medical
    support for the injured victims from the attacks on the World Trade Center
    (WTC). While USNS Comfort was en route to New York City, its mission was
    revised from providing medical support to providing support to the rescue
    workers on site. Because of the revision, most of the medical staff on board
    USNS Comfort left the ship and began to return to their respective military
    treatment facilities before USNS Comfort’s arrival at New York City on
    September 14, 2001. Under the revised mission, USNS Comfort provided WTC
    rescue workers with food and shelter, as well as laundry, medical, and other
    services, for about 2 weeks. According to the Navy, the estimated cost of
    deploying USNS Comfort was about $2.5 million. Other non-medical support
    provided by DoD through the FRP process entailed providing supplies,
    equipment, and lodging on military installations and transporting people,
    supplies, and equipment.




                                        4
Movement of Medical Assets to McGuire Air Force Base

    Although not requested through the FRP process, within 5½ hours after the first
    attack on the WTC, the Secretary of the Air Force directed the movement of Air
    Force medical resources to support WTC victims. The Air Force stated that the
    movement of the personnel and equipment also served the purpose of making
    the resources available worldwide for Air Force requirements. The Air Force
    moved 539 medical personnel and 3 Expeditionary Medical Systems to McGuire
    Air Force Base, which is approximately 1 hour from the WTC, the closest Air
    Force facility to the WTC, and a major Air Force port facility for worldwide
    Air Force operations. The movement resulted in the relocation of personnel,
    medical equipment, or both from Lackland Air Force Base, Texas; Keesler Air
    Force Base, Mississippi; Langley Air Force Base, Virginia; Mountain Home
    Air Force Base, Idaho; Wright-Patterson Air Force Base, Ohio; Scott Air Force
    Base, Illinois; Andrews Air Force Base, Maryland; Altus Air Force Base,
    Oklahoma; and Randolph Air Force Base, Texas. In addition, a Small Portable
    Expeditionary Aeromedical Rapid Response team from Baltimore, Maryland,
    was moved to McGuire Air Force Base. The majority of the personnel and
    medical equipment arrived at McGuire Air Force Base on September 12, 2001,
    within 17 to 26 hours after the attacks.

    To determine why the Air Force took action and moved medical resources to
    support the WTC disaster without an RFA, we set up a series of meetings with
    senior Air Force management. We met with the Secretary of the Air Force, the
    Air Force Surgeon General, and the Air Force Deputy General Counsel
    (Military Affairs).

    Secretary of the Air Force Meeting. The Secretary of the Air Force stated
    that after the Pentagon was attacked, communication outside of the Air Force
    was difficult. From the Air Force Crisis Action Center in the Pentagon, the
    Secretary unsuccessfully tried to contact DOMS to coordinate the Air Force
    response to the terrorist attacks. The Secretary further stated that on the
    afternoon of September 11, 2001, after he moved to a Crisis Action Center
    outside of the Pentagon, he talked to someone at FEMA who stated they
    appreciated the fact that the Air Force was moving medical assets and personnel
    to McGuire Air Force Base. The Secretary could not recall the name of the
    FEMA person that the Secretary spoke with. The Secretary stated that most of
    the personnel and medical equipment began returning to their respective home
    bases during the week of September 17, 2001.

    At the conclusion of our meeting, we asked the Secretary what he would do if a
    national disaster similar to the attacks took place in the future. He stated he
    would advise the Executive Agent of his medical capabilities and await guidance
    before moving medical resources.

    Subsequent to the meeting, the Air Force stated that the Secretary considered the
    movement of assets to have two purposes: to make them available for civilian
    authorities in New York City, if needed, and to preposition them at a major Air
    Force port base for immediate response to Air Force requirements worldwide.
    Also, the Air Force stated that the Secretary had attempted to discuss the


                                        5
movement of resources with the FEMA Director, but because he was not
available, was put through to the most senior FEMA representative available,
believed by the Secretary’s staff to be a Deputy Director.

Air Force Surgeon General Meeting. The Surgeon General stated that the
FRP is badly broken in that it moves too slowly to medically support an acute
scenario like the attacks on the WTC. He also pointed out that the Air Force
action was a “base to base” movement of medical resources, which Air Force
Legal Counsel advised was within title 10, United States Code authority of the
Secretary of the Air Force. The Surgeon General further indicated that the
Secretary of the Air Force stated the movement of medical assets would serve as
valuable training exercise if the assets were not needed to support WTC
personnel. The Surgeon General also stated that the cost to move the personnel
and medical equipment to McGuire Air Force Base totaled about $400,000 in
flying hour costs and about $100,000 in travel and per diem costs.

Subsequent to the meeting, the Air Force stated that based on recent exercises
with civilian authorities, the Surgeon General was aware that the Air Force
possessed unique trauma capabilities not extant in the civilian community, and
that delay in movement could mean that the lifesaving assets would not be
available in time.

Air Force Deputy General Counsel (Military Affairs) Meeting. The Deputy
General Counsel stated that the movement complied with the Secretary of the
Air Force authority provided under title 10, United States Code, and the
commander’s immediate response authority discussed in the FRP and DoD
Directive 3025.1. The Deputy General Counsel stated that it was important to
position the personnel and assets on a military base and maintain control until
civilian authorities request resources. Under the immediate response authority,
during imminently serious conditions resulting from civil emergency or attack,
military commanders are authorized to take immediate action to save lives,
prevent human suffering, or mitigate great property damage. The Deputy
General Counsel also stated that the September 11 events were exceptional and
that the information on the possible scale of casualties convinced the Air Force
Surgeon General that it would be impossible for New York City to handle the
volume of injured victims.

Funding of DoD Medical Support. Because the Air Force movement of
medical resources was not requested through an RFA, FEMA is not reimbursing
the cost. Shortly after the terrorist attacks, the Office of the Assistant Secretary
of Defense (Health Affairs) (OASD[HA]) received a request from the Office of
the Under Secretary of Defense (Comptroller) for an estimate of the cost for the
initial medical response to the attacks. The estimate was needed to support the
DoD request for Defense Emergency Response Funds. Based on cost estimates
provided by each Military Department, OASD(HA) estimated that the total cost
for the initial medical response was $24 million. OASD(HA) subsequently
received that amount.

The $24 million included $12.6 million that the Air Force originally estimated
as the cost for their initial medical response. The Air Force estimate included
about $10.8 million for moving assets to McGuire Air Force Base.


                                     6
    Approximately $10.3 million of the $10.8 million was for the cost of the
    medical equipment; $536,000 was for travel and per diem costs. The Air Force
    subsequently reduced the estimate from $12.6 million to about $1.6 million.
    The bulk of the reduction was because the medical equipment and supplies
    moved to McGuire Air Force Base were not used. In addition, the travel and
    per diem portion of the estimate was reduced to about $114,000.

    OASD(HA) informed the Office of the Under Secretary of Defense
    (Comptroller) of the reduction in the estimated cost and, as of March 6, 2002,
    reviews were ongoing at that level to determine whether the Defense Emergency
    Response Funds received in excess of the reduced estimate can be used for other
    valid disaster-related requirements.


Conclusion

    We recognize that the Secretary of the Air Force has the authority to move
    assets between bases. We realize the attacks were exceptional events and
    neither the FRP nor DoD guidance limits the amount of medical resources or
    distance the resources can be moved under the commander’s immediate
    response authority. We also realize prompt treatment of trauma patients is
    extremely important and, due to the magnitude of the attacks, it appeared
    additional medical support would be needed in New York. However, to ensure
    adequate medical support was available, the HHS Office of Emergency
    Preparedness activated five disaster medical assistance teams in the northeastern
    United States 2 hours after the WTC attacks. On the night of September 11,
    2001, the Governor of New York issued a press release stating that the
    emergency department workload at the local hospitals was already easing. The
    release also stated that local hospitals had treated and released the majority of
    patients and that 3,000 beds were available in New York City and the immediate
    area for injured victims.

    We commend the Air Force for its willingness to provide full medical support to
    the civilian sector during national disasters. However, when the Air Force
    moves medical resources without an RFA under procedures outlined in the FRP,
    there is a risk that the resources may not be needed and DoD will incur
    unnecessary costs. Coordinating the movement of medical resources to support
    civil disasters through DOMS helps to ensure that no unnecessary costs are
    incurred and also that the right mix of medical personnel and equipment are
    provided. DoD Directive 3025.1 requires any commander or official acting
    under the immediate response authority to advise the DoD Executive Agent
    through command channels by the most expeditious means available and to seek
    approval or additional authorizations as needed. DOMS personnel working for
    the DoD Executive Agent indicated that the Air Force did not provide any
    information concerning the movement of medical resources to McGuire Air
    Force Base.

    A comprehensive review of the FRP was beyond the scope of this evaluation,
    but we saw nothing that indicated the FRP process was ineffective in handling
    the Federal response to the events of September 11, 2001. However, if the Air


                                        7
    Force believes that revisions should be made to the FRP to improve response
    time, then the Air Force, in conjunction with OASD(HA), should work with
    DOMS to effect the changes.


Recommendations

    1. We recommend that the Secretary of the Air Force, when moving
    resources to support civil authorities under the commander’s immediate
    response authority, advise the DoD Executive Agent through the Director of
    Military Support by the most expeditious means available, and seek
    approval or additional authorizations as needed, in accordance with DoD
    Directive 3025.1.

    2. We recommend that the Secretary of the Air Force coordinate with the
    Director of Military Support to address communications problems identified
    by the Air Force during its attempt to provide support as a result of the
    September 11, 2001, terrorist attacks.

    DOMS Comments. Although not required to comment, DOMS agreed with the
    recommendations. In addition, DOMS stated that the Air Force Chief of Staff
    normally communicates with DOMS through the Air Force National Security
    Emergency Preparedness Division or the Air Force Deputy DOMS. Also, at no
    time on September 11, 2001, did the DOMS phones or e-mail not function, and
    DOMS was not aware of anyone having difficulty communicating with DOMS.
    For the full text of DOMS comments, see the Management Comments section of
    the report.


Management Comments Required

    The Secretary of the Air Force did not comment on a draft of this report. We
    request that the Secretary of the Air Force provide comments on the final
    report.




                                       8
Appendix A. Scope and Methodology
   Work Performed. We reviewed the FRP and applicable laws, DoD directives
   and manual and Military Department guidance and policies dated from August
   1981 through August 2001 pertinent to the process for supporting, and the cost
   of deploying medical assets in response to, the FRP. We reviewed RFAs and
   funding documents associated with the DoD medical support provided in
   response to the terrorist attacks on September 11, 2001.

   We met with the Secretary of the Air Force, the Air Force Chief of Staff, and
   the Air Force Surgeon General to determine the rationale for moving medical
   assets to McGuire Air Force Base. We met with personnel from OASD(HA)
   and the TRICARE Management Activity to determine their concerns with the
   DoD medical response to the terrorist attacks and the associated costs. We
   interviewed personnel from the Office of the Executive Secretary of DoD; the
   Office of the Command Surgeon, U.S. Joint Forces Command; the Office of the
   Director of Military Support; the Office of the Surgeon General for each
   Military Department; and the Air Force Air Combat Command to evaluate DoD
   policy and to determine their roles in providing support to the disaster relief
   efforts resulting from the attacks of September 11, 2001. We also met with the
   Air Force Deputy General Counsel (Military Affairs) to determine the legal
   authority for moving Air Force medical assets to McGuire Air Force Base.

   We met with personnel from the HHS Office of Emergency Preparedness to
   discuss the medical support role of DoD in the FRP and the National Disaster
   Medical System. We contacted representatives of FEMA; the Office of
   Emergency Management, New York City; and the New York Presbyterian
   Hospital to determine the extent of medical resources required to respond to the
   terrorist attacks.

   Limitations to Scope. We did not review the management control program
   because the scope of the evaluation was limited to the DoD response to the
   attacks. Although we evaluated the DoD medical support to the FRP, we did
   not evaluate the adequacy of the FRP. In addition, we did not validate the costs
   of flying hours, travel, or per diem associated with the movement of personnel
   and equipment to McGuire Air Force Base. We also did not validate the
   estimate OASD(HA) submitted for Defense Emergency Response Funds. We
   did not evaluate the possible command, control, and communications issues
   raised during the evaluation because those issues may cross other support
   functions associated with the FRP process.

   High-Risk Area. The General Accounting Office has identified several high-
   risk areas in DoD. This report provides coverage of the DoD Infrastructure
   Management high-risk area.




                                       9
    Use of Computer-Processed Data. We did not rely on computer-processed
    data for this evaluation.

    Standards and Dates. We performed this evaluation from September 2001
    through March 2002 in accordance with standards implemented by the Inspector
    General of the Department of Defense, except for the limitations previously
    discussed.

    Contacts During the Evaluation. We visited and contacted individuals and
    organizations within and outside of DoD. Further details are available upon
    request.


Prior Coverage

    No prior audit coverage has been conducted on DoD medical support to the FRP
    during the last 5 years.




                                      10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army
Director of Military Support

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Secretary of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         12
Director of Military Support Comments




                  13
Evaluation Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Michael A. Joseph
Sanford W. Tomlin
G. Paul Johnson
James A. O’Connell
Mary J. Gibson
Lynnell E. Hines
Mary Ann Hubbell
Elizabeth L. N. Shifflett
